OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
IMPLEMENTATION OF
SELECTED HOMELAND
SECURITY PRESIDENTIAL
DIRECTIVE 12
REQUIREMENTS FOR
PERSONAL IDENTITY
VERIFICATION OF FEDERAL
EMPLOYEES AND
CONTRACTORS
AUDIT REPORT NO. A-000-08-004-P
February 06, 2008


WASHINGTON, DC
Office of Inspector General


February 06, 2008

MEMORANDUM

TO:                  CIO/M, Chief Information Officer, David C. Anewalt

FROM:                IG/A/ITSA, Director, Melinda G. Dempsey /s/

SUBJECT:             Audit of USAID’s Implementation of Selected Homeland Security Presidential
                     Directive 12 (HSPD-12) Requirements for Personal Identity Verification of Federal
                     Employees and Contractors (Audit Report No. A-000-08-004-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit. In
finalizing the report, we considered your written comments on our draft report and included those
comments in their entirety in Appendix II of this report.

The report contains one recommendation. Based on your response to our draft report, we have
reached a management decision on the recommendation. Please notify the Bureau for
Management’s Audit, Performance and Compliance Division when final action is completed.

I appreciate the cooperation and courtesies extended to my staff during this audit.



cc: Office of Security, Randy Streufert




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ....................................................................................................................... 3

Audit Objective .................................................................................................................... 5

Audit Finding ..................................................................................................................... 6

     Implementation Plan Is Needed for HSPD-12............................................................... 7

Evaluation of Management Comments ........................................................................... 12

Appendix I – Scope and Methodology ............................................................................ 13

Appendix II – Management Comments ........................................................................... 15
SUMMARY OF RESULTS
Homeland Security Presidential Directive 12 (HSPD-12) requires the development and
implementation of a mandatory Governmentwide standard for secure and reliable forms of
identification of Federal employees and contractors to access federally controlled facilities
and information systems. The Office of Inspector General, Information Technology and
Special Audits Division, in Washington, DC, conducted an audit to determine whether
USAID addressed selected HSPD-12 requirements 1 from the Office of Management and
Budget (OMB) and the National Institute of Standards and Technology (NIST) in support
of Personal Identity Verification (PIV) of Federal employees and contractors. The audit
assessed USAID’s progress on selected HSPD-12 requirements and milestones due in
calendar years 2007 and 2008 (see page 5).

In support of HSPD-12, OMB outlined the implementation schedule to executive agencies.
Selected HSPD-12 requirements will be addressed in two phases that incorporate the use
of various NIST technical requirements. PIV-I requires agencies to develop policies and
procedures to verify the personal identities of Federal employees and contractors,
including identity verification for applicants, background checks, and employee
registration. PIV-II defines the technical requirements and functions that agencies must
incorporate into a Federal identity credential. During PIV-II, agencies must demonstrate
their ability to issue new identification cards to all employees and contractors. Employees
and contractors who started Federal employment since October 2005 are required to
follow PIV-I requirements for identity verification. Employees and contractors who started
Federal employment since October 2006 are required to meet PIV-I requirements and
receive identity credentials that conform to PIV-II requirements. Current employees and
contractors who started their employment prior to October 2005 are required to have
complete background checks by October 2007 or October 2008, depending on their years
of service (see page 4).

USAID’s Office of Security had implemented policies and procedures before the HSPD-12
initiative to ensure that USAID employees, contractors, and other Government personnel
had adequate background checks or underwent personal security investigations and
vetting. However, the audit found that USAID did not fully address selected HSPD-12
requirements from the Office of Management and Budget and National Institute of
Standards and Technology in support of Personal Identity Verification. Specifically, USAID
did not fully comply with PIV-I requirements because USAID personnel could not identify
or retrieve all of the identity proofing documents from the Department of State’s (DoS)
Identity Management System. USAID also did not meet the OMB PIV-II target date to
issue new Federal identity credentials to current employees and contractors in 2007, nor
will it meet OMB’s 2008 target date based on prior rates of issuance (see page 6).
Several factors contributed to USAID’s inability to meet the PIV-I and PIV-II requirements:
(1) USAID’s lack of an implementation plan as required by OMB, (2) USAID’s decision not
to establish HSPD-12 as a higher-priority information technology (IT) investment,
(3) USAID’s dependence on DoS implementation of HSPD-12, (4) NIST’s evolving
technical requirements, and (5) OMB’s funding constraint on Agency budget requests.
Some of these factors were external to USAID and thus outside of USAID’s control.

1
  The requirements selected were based on OMB’s HSPD-12 implementing instructions and are
shown in table 1 on page 4 of this report.


                                                                                           1
Nonetheless, without a plan to implement HSPD-12 and Agency support to fund HSPD-12
as a higher-priority IT investment, USAID’s project managers are left with few or no details
about how they can best implement HSPD-12. As a result, project managers made ad hoc
decisions regarding funding, resources, and technical approaches that may not have been
realistic and ultimately may have delayed or prevented the Agency’s implementation of
this Governmentwide mandate. If USAID does not implement PIV-I and PIV-II, it may not
fully realize the critically needed security benefits of PIV, and interoperability among
Federal agency PIV card programs (one of the major goals of HSPD-12) may not be
achieved (see pages 7–11).

This report makes one recommendation to improve USAID’s implementation of HSPD-12
(see page 11). In response to the draft report, USAID agreed with the audit
recommendation, outlined its plans to address the audit recommendation, and provided
estimated dates when the final action would be completed. Based on an evaluation of the
Agency’s comments, a management decision has been reached on the recommendation
(see page 12). USAID’s comments are included in their entirety in appendix II of this report
(see page 15).




                                                                                          2
BACKGROUND
In response to terrorist attacks on the United States, the President issued a series of
initiatives to increase security across Government agencies. On August 27, 2004, the
President signed Homeland Security Presidential Directive 12 (HSPD-12), which required
the development and implementation of a mandatory Governmentwide standard for
secure and reliable forms of identification to allow Federal employees and contractors to
gain physical access to federally controlled facilities and logical access to federally
controlled information systems. The goals of HSPD-12 emphasized security and
interoperability among Federal Government agencies and specified that identity
credentials would be—

   •   Issued based on firm criteria to verify an employee’s identity;
   •   Strongly resistant to identity fraud, tampering, counterfeiting, and terrorist
       exploitation;
   •   Rapidly authenticated electronically; and
   •   Issued only by providers whose reliability had been established.

HSPD-12 assigns responsibility to the Office of Management and Budget (OMB) for
overseeing executive agencies’ implementation of HSPD-12 and to the National Institute
of Standards and Technology (NIST) for issuing technical guidance. NIST issued Federal
Information Processing Standard (FIPS) 201, Personal Identity Verification (PIV) of
Federal Employees and Contractors, and other supporting technical publications to help
executive agencies implement HSPD-12’s requirements.

In August 2005, OMB issued memorandum M-05-24, Implementation of Homeland
Security Presidential Directive (HSPD) 12—Policy for a Common Identification Standard
for Federal Employees and Contractors, to executive branch agencies with instructions
and timeframes to implement selected HSPD-12 requirements. OMB and NIST defined
HSPD-12’s implementation in two phases: PIV part one (PIV-I) and PIV part two (PIV-II).
Table 1 summarizes some selected key OMB requirements and timeframes to implement
selected requirements under PIV-I and PIV-II.




                                                                                        3
Table 1. HSPD-12 Selected Requirements and OMB Implementation Deadlines 2
                                                                    OMB
                                                               Implementation
 HSPD-12 Selected Requirements                                   Deadlines
 PIV-I
 1. Initiate national agency check with inquiry (NACI) before
                                                                  10/27/05
 credential issuance
 2. Maintain and identify the two types of documents used
                                                                  10/27/05
 for employee and contractor identity proofing
 3. Complete background investigations for current
 employees and contractors with fewer than 15 years of            10/27/07
 service
 4. Complete background investigations for current
 employees and contractors with more than 15 years of             10/27/08
 service
 PIV-II
 5. Start issuance of identity credentials                        10/27/06
 6. Issue and require the use of identity credentials for
 current employees and contractors with fewer than 15 years       10/27/07
 of service
 7. Issue and require the use of identity credentials for
 current employees and contractors with more than 15              10/27/08
 years of service
 8. Use the credentials’ electronic security features to
 authenticate identities to gain physical access to facilities        *
 9. Use the credentials’ electronic security features to
 authenticate identities to gain electronic access to                 *
 information systems
*According to OMB’s HSPD-12 implementation guidance, agencies are not required to complete implementation of all
card capabilities on October 27, 2006. Thus, agencies are not expected to have their entire infrastructure installed to
enable use of the cards at all facilities and systems. However, agencies are expected to make use of the cards using a
risk-based approach.


PIV-I requires agencies to develop policies and perform specific procedures to ensure that
the personal identities of employees and contractors are verified and registered before
issuing Federal identity credentials. During identity proofing, the applicant is required to
provide two forms of identity source documents in original form. The identity source
documents must come from the list of acceptable documents included in Form I-9, OMB
No. 1115-0136, Employment Eligibility Verification, and at least one of the documents
must be a valid State or Federal government-issued picture identification. Additionally, the
identity source documents used for identity proofing must be recorded by the Agency. PIV-
II provides guidance on technical interoperability requirements, implementation, issuance,
and use of identity credentials. Current employees and contractors who started their
employment prior to October 27, 2005, were required to have complete background
checks by October 27, 2007, or October 27, 2008, depending on their years of service.
However, new employees and contractors who started employment since October 27,
2005, were immediately subject to PIV-I background check requirements for identity
verification. New employees and contractors who started employment since October 27,
2006, were immediately subject to both PIV-I and PIV-II requirements.
2
    Source: Office of Management and Budget, Memorandum M-05-24, dated August 5, 2005.


                                                                                                                     4
When PIV-II is fully implemented Governmentwide, the holder of an identity credential card
from one agency can be electronically authorized by another agency to access its facilities
and systems. The identity credentials store encoded data on a credit card–sized card that
verifies the identity of each cardholder through a card reader. For example, a cardholder
presents the credential to a card reader at a physical entrance to request access to a
Federal Government facility. Once the data are read, the card reader sends the
information to an access control system that will either grant or deny access to the
cardholder. Similarly, when a cardholder presents the credential to a card reader for
network access at a login screen, the logical access control system validates the
cardholder’s credential and authenticates the identity of the cardholder before granting
access to an information technology (IT) system.

USAID’s implementation of HSPD-12 is led by personnel within USAID’s Office of the
Chief Information Officer (CIO) and Office of Security (SEC). USAID’s Acting CIO was
tasked to design, develop, implement, and maintain security access systems, including
security identification and credentialing for USAID employees and contractors. Under
USAID’s Office of the CIO, the Chief Information Security Office was responsible for
registering the enrollment of personnel into the identity management system used to issue
credentials. USAID’s SEC was responsible for ensuring that USAID employees,
contractors, and other Government personnel had or followed appropriate personal
security background checks. SEC was responsible for credential issuance, maintenance,
and security for physical access to USAID headquarters.

To support the HSPD-12 project, USAID’s SEC entered into a 5-year memorandum of
understanding with the Bureau of Diplomatic Security within the Department of State
(DoS). This interagency agreement enrolled USAID in the DoS Identity Management
System (IDMS), which enabled USAID to issue and renew credentials based on DoS PIV-
II cards.

DoS is responsible for issuing credentials to USAID employees and contractors assigned
to overseas posts. As of May 2007, approximately two-thirds of USAID’s total workforce
was assigned to overseas posts, with the remaining third located at U.S. headquarters.

As of April 2007, USAID’s HSPD-12 project team had obligated about $251,000 for the
purchase of equipment and contractor support to implement HSPD-12. 3

AUDIT OBJECTIVE
The Office of Inspector General, Information Technology and Special Audits Division,
included this audit in its fiscal year 2007 audit plan to answer the following question:

       Did USAID address selected requirements from the Office of
       Management and Budget and the National Institute of Standards and
       Technology in support of Homeland Security Presidential Directive 12 for
       Personal Identity Verification of Federal Employees and Contractors?

Appendix I contains a discussion of the audit’s scope and methodology.
3
  The Office of the CIO and the Office of Security provided approximately $110,000 and $141,000,
respectively.


                                                                                              5
AUDIT FINDING
As shown in table 2 below, USAID did not fully address selected HSPD-12 requirements
from the Office of Management and Budget and National Institute of Standards and
Technology in support of Personal Identity Verification.

Table 2. HSPD-12 Selected Requirements, OMB Deadlines and Status of USAID’s
Planned Completion Dates (as of May 31, 2007)
                                                       USAID’s
                                              OMB     Completion Has USAID Met
 Selected HSPD-12 Requirements               Deadline    Date     Requirement?
                          4
 Compliance with PIV-I
 1. Initiate national agency check with 10/27/05       10/26/05         Yes
 inquiry (NACI) investigations prior to
 credential issuance or alternate check
 2. Maintain and identify the two types of 10/27/05     To Be           No*
 documents used for employee and                      Determined
 contractor identity proofing                           (TBD)
 3. Complete background investigations for 10/27/07    10/26/05         Yes
 current employees and contractors with
 fewer than 15 years of service
 4. Complete background investigations for 10/27/08    10/26/05         Yes
 current employees with more than 15
 years of service
 Compliance with PIV-II
 5. Start issuance of identity credentials   10/27/06  10/27/06         Yes
 6. Issue and require the use of identity 10/27/07       TBD             No
 credentials for current employees and                           (Estimate ~ 2011
 contractors with fewer than 15 years of                              or later)
 service
 7. Issue and require the use of identity 10/27/08       TBD             No
 credentials for current employees and                           (Estimate ~2011
 contractors employed with more than 15                               or later)
 years of service
 8. Use the credentials’ electronic security    **       TBD           No***
 features to authenticate identities to gain
 physical access to facilities




4
  As required, USAID recognized federally awarded clearances performed by other U.S.
Government agencies.


                                                                                  6
(Table 2 – continued from previous page)
9. Use the credentials’ electronic security                         **               TBD                    No***
features to authenticate identities to gain
electronic access to information systems
* USAID could neither identify nor retrieve from the Identity Management System the two forms of identification used to
vet an individual’s identity that were issued a Federal identity credential as required by NIST 201 for 9 out of 20 sampled
employees.
** According to OMB’s HSPD-12 implementation guidance, agencies are not required to complete implementation of all
card capabilities on October 27, 2006. Thus, agencies are not expected to have their entire infrastructure installed to
enable use of the cards at all facilities and systems. However, agencies are expected to make use of the cards using a
risk-based approach.
*** USAID did not develop an implementation plan that included estimated due dates for meeting these requirements.




Implementation Plan Is Needed for HSPD-12
 Summary: USAID did not fully comply with PIV-I requirements because USAID
 personnel could not identify or retrieve all of the identity proofing documents from the
 Department of State’s (DoS) Identity Management System. USAID also did not meet the
 OMB PIV-II target date to issue new Federal identity credentials to current employees
 and contractors in 2007, nor will it meet OMB’s 2008 target date based on prior rates of
 issuance. USAID did not meet the above-noted requirements in OMB Memorandum
 M-05-24 and supporting documents, in part because it did not (1) develop an
 implementation plan in support of HSPD-12 or (2) establish HSPD-12 as a higher-
 priority IT investment. As a result, USAID project managers who are responsible for
 issuing and meeting OMB Federal identity credential deadlines and the requirement to
 use the Federal identity credential to access Federal facilities and information systems
 had few or no details as to how they could best implement these requirements in
 concert with DoS. This led to project managers having to make ad hoc decisions
 regarding funding, resources, and technical approaches that may not have been realistic
 and ultimately may have delayed or prevented the Agency’s implementation of this
 Governmentwide mandate. Therefore, USAID may not fully realize the critically needed
 security benefits of PIV, and more important, interoperability among Federal agency PIV
 card programs (one of the major goals of HSPD-12) may not be achieved.

As shown in table 2, USAID did not fully comply with PIV-I requirements for credentials
issued under PIV-II. OMB memorandum M-05-24 directs that PIV-I identity proofing and
registration processes must be consistent with NIST guidance and applied to all new
identity credentials. This includes the PIV-I requirement to identify or retrieve the two
source documents presented for identity proofing of employees and contractors. The two
documents must come from the list of acceptable documents included in Form I-9, OMB
No. 1115-0136, Employment Eligibility Verification.

Neither Department of State nor USAID could identify or retrieve from the identity
management system used by USAID and maintained by the Department of State the two
identity source documents used for 9 out of 20 sampled employees. Nor did USAID have
any other records to provide this information to the OIG when requested. Consequently,
USAID could not demonstrate its compliance with the PIV-I requirement. When USAID’s
project manager was made aware of this problem, the project manager promptly
communicated it to USAID’s Office of Security and Department of State for resolution.
Because USAID is taking steps to address this issue, the Office of Inspector General is not
making a formal recommendation to address this problem at this time.


                                                                                                                         7
USAID also did not meet OMB’s 2007 PIV-II target date to issue and use identity
credentials for employees and contractors with fewer than 15 years of service, and will not
meet OMB’s 2008 target date to issue new identity credentials to current employees and
contractors with more than 15 years, based on prior rates of issuance. USAID began
issuing PIV-II credentials in October 2006. From October 2006 through May 2007, USAID
issued 497 credentials to its approximately 3,100 employees and contractors at
headquarters. This equates to roughly 60 credentials per month. At this rate of issuance,
USAID would need more than 3 years to issue credentials for the approximately 2,600
remaining employees and contractors at headquarters. Consequently, USAID did not meet
OMB’s October 2007 and based on these rates of issuance will not meet OMB’s 2008
target dates. USAID’s HSPD-12 project team members indicated that resource constraints
limited the number of credentials that could be issued.

Further, USAID officials from the Office of the CIO and the SEC acknowledged that they
could not meet OMB’s PIV-II target dates of October 2007 and 2008 for issuance and to
start using the credentials’ electronic features to authenticate cardholder identities to
access facilities and information systems.

More important, USAID will not meet the PIV-II requirements because it did not develop an
implementation plan. An implementation plan would serve as the Agency’s road map to
provide action-oriented direction in defining key milestones, processes, and specifications
to implement the logical and physical access requirements of HSPD-12. Additionally, it
would provide a concept of operation and identify the resources required to support the
implementation of HSPD-12’s PIV-II requirements. According to OMB’s instructions for
implementing HSPD-12, agencies were required to submit their implementation plans to
OMB by June 27, 2005.

Although USAID did not prepare an implementation plan for OMB that described a
comprehensive strategy, the HSPD-12 project team has tried to develop an approach to
implement PIV-II and has modified its approach several times since the beginning of the
HSPD-12 initiative.

The Agency’s initial approach started with the development of a business case 5 in the fall
of 2005 for funding in the FY 2007 budget cycle. The project team estimated that about
$17 million would be required to implement HSPD-12 at headquarters and at 60 overseas
missions worldwide. The business case’s acquisition plans presumed that USAID would
purchase its own Identity Management System (IDMS). In this approach, the acquisition
plans assumed no DoS participation. USAID officials indicated that this initial approach
was changed due to funding limitations in the spring of 2006, when the Agency sought to
enter into an interagency service agreement with DoS. Under this agreement, DoS would
be responsible for producing and issuing identity credentials for USAID employees and
contractors. This draft agreement was never formalized and subsequently changed.

Nonetheless, USAID entered into a signed agreement to use the DoS IDMS. USAID would
obtain PIV-II cards from DoS and issue the PIV-II cards as Federal identity credentials to
USAID headquarters’ employees and contractors. However, the project team officials
indicated that DoS would not allow USAID’s facility and IT systems to be connected to its

5
  A business case is a formal document used to evaluate and justify IT project investment requests
from either the capital investment or operating expense funds.


                                                                                                8
IDMS. Therefore, the agreement with DoS alone will not address the technical
requirements and functions to access facilities and IT systems that USAID must
incorporate to use the Federal identity credential.

Under the current approach, three functional components operate independently:
(1) IDMS, the DoS system that USAID is using to issue and renew PIV identity credentials;
(2) a system that assigns access privileges for employees and contractors to access
USAID’s facilities; and (3) systems that authenticate access privileges for employees and
contractors to specific information systems. Even though OMB’s implementation guidance
directs agencies to phase in the use of the Federal identity credential capabilities at
facilities and systems, USAID’s project team has not addressed how the use of the
Federal identity credentials will be phased in to integrate these functional components into
a single credential. Specifically, USAID did not develop an implementation plan that
addressed the integration of these functional components.

Additionally, USAID’s HSPD-12 project team members indicated that USAID will not meet
the PIV-II requirements because of funding constraints. Project managers for HSPD-12
indicated that the Agency did not restructure its major IT investments to provide additional
resources to support this Governmentwide initiative because of other competing Agency
projects that needed funding.

Despite the lack of total funding for HSPD-12, as of April 2007 the project team had
obtained $251,000 from the offices of the Chief Information Officer and Office of Security
to support the HSPD-12 project, which included the service agreement with DoS,
contractor support, and equipment purchases used to enroll applicants and issue
credentials. Subsequent to the OIG’s fieldwork, the Agency provided additional funds for
fiscal years 2008 and 2009. Therefore, the Office of Inspector General is not making a
recommendation regarding the project’s funding.

During the audit, three external factors were also identified as reasons USAID had not met
the PIV-II requirements. First, USAID’s employees and contractors working in overseas
posts rely on DoS regional security officers for identity credentials; however, PIV-II identity
credentials cannot be issued until DoS deploys its new credentials to its overseas posts.
As of May 2007, DoS estimated that deployment of its new credentials will not be
completed until 2011 or later—at a minimum, more than 3 years past OMB’s schedule.
Second, NIST continued to issue various technical requirements after OMB issued its
implementing instructions to executive agencies. For example, several months before and
after agencies were to start compliance with PIV-II in October 2006, key publications
needed to implement the technical requirement provisions of FIPS 201 were revised and
reissued. Thus, agencies did not have sufficient time to test and acquire compliant
products within OMB required timeframes. Figure 1 on the next page illustrates when
NIST issued FIPS 201 and subsequent technical publications and guidance in relation to
the signing of HSPD-12 and OMB’s instructions to agencies.




                                                                                             9
Figure 1. Time Line of FIPS 201 and Related Activities (as of August 2007)
                                                 OMB implementation guidance
        800-79 Certification and Accreditation
                                                 NIST designated labs to conduct
        of PIV Issuing Organizations
                                                 PIV conformance testing           800-96 PIV Card/Reader
           Agencies submitted
                                                                                     Begin PIV II compliance
           Implementation plans to OMB
                                                      800-85B PIV Data Mode
                                                                                           800-76-1 Biometric Data
       800-78 Cryptographic Algorithms
       and Key Sizes for PIV                        800-85A PIV Application                     800-87 Codes for
                                                    and Middleware                              Identification
               800-73 issued guidance
                                                                                                       800-104
               On Interfaces for PIV               800-73-1 Interface
                                                                                                       PIV Topography
                                                   for PIV
                                                  FIPS 201-1 issued
                                                                                                            800-78-1
                  FIPS 201 issued                                                                           Cryptographic
                                                     Begin PIV I                                             Key Sizes
  HSPD-12 signed                                     compliance                                             for PIV

 J FM AM J J A S O N D J FM AM J J A S O N D                  J FM AM J J A S O N D J FM AM J J A S O N D
        2004                             2005                            2006                   2007


Third, OMB initially announced to agencies that no additional funding would be provided to
implement the requirements of HSPD-12. OMB expected agencies to fund HSPD-12
through existing funds. OMB anticipated that agencies would restructure their major
investments to pay for HSPD-12. Moreover, because all Federal agencies have existing
background investigation, access control, and identification credential activities, OMB
anticipated that these activities, and the funding used to support them, would be used to
support HSPD-12 activities.

Although these factors are external to USAID and important, the Office of Inspector
General is not making any recommendations to address them in this report.


CONCLUSION

Although some challenges and dependencies remain outside USAID’s control and prevent
it from addressing and obtaining full compliance with PIV-I and PIV-II requirements within
OMB’s stipulated completion target dates, USAID can make improvements, such as
developing a plan, to advance the implementation of HSPD-12. Without an implementation
plan, project managers who are responsible for implementing the physical and logical
access requirements mandated in PIV-II are left with few or no details about how they can
best implement these requirements in concert with the DoS IDMS system. This situation
leads project managers to make ad hoc decisions regarding funding, resources, and
technical approaches that may not be realistic and may delay or prevent the Agency’s
implementation of this Governmentwide mandate. Furthermore, the critical security
benefits of PIV may not be fully realized, and more important, interoperability among
Federal agency PIV card programs (one of the major goals of HSPD-12) may not be
achieved. Consequently, USAID needs to define required resources and plan how it will
implement PIV-II, including issuance of credentials to support physical and logical access
to USAID facilities and systems.

Therefore, the Office of Inspector General is making one recommendation to assist the
Agency’s implementation of HSPD-12:



                                                                                                                      10
Recommendation No. 1: We recommend that USAID’s Chief Information
Officer develop and document an implementation plan for Personal Identity
Verification Part II, and submit the plan to the Office of Management and
Budget.




                                                                            11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID agreed with the audit finding and the one
recommendation made in the report. The Agency outlined its plans to address the audit
recommendation and provided corrective action plans and target completion dates. As a
result, management decisions have been reached for recommendation no. 1.

USAID provided additional comments that were considered when finalizing this audit
report. To clarify the information in tables 1 and 2 from the draft report, item numbers 2
and 4 were added (i.e., “Identify and maintain the two types of documents…” and “Start
issuance of identity credentials”). In addition, the recommendation was modified by
deleting the following second sentence: “In developing this plan, consideration should be
given to explore other options to implement Homeland Security Presidential Directive
12.”

USAID’s consolidated comments, which incorporate comments from the Office of the
Chief Information Officer and the Office of Security, are included in appendix II.




                                                                                       12
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
This audit was performed in accordance with generally accepted Government auditing
standards. The Office of Inspector General, Information Technology and Special Audits
Division performed this audit to determine whether USAID addressed selected
requirements of the Office of Management and Budget (OMB) and the National Institute of
Standards and Technology (NIST) in implementing Homeland Security Presidential
Directive 12 (HSPD-12) for Personal Identity Verification (PIV) of Federal employees and
contractors.

Audit fieldwork was conducted between January and August 2007, primarily at USAID
headquarters in Washington, DC, and in Northern Virginia. The audit team met with
Department of State (DoS) Diplomatic Security personnel and visited their data processing
facility in Northern Virginia, which supports the IDMS system that USAID uses.

In support of the audit objective, the audit team evaluated internal controls related to the
implementation of PIV-I and PIV-II requirements. The scope of work focused on USAID
headquarters employees and contractors, and covered the following areas:

      •   Personal identity proofing processes
      •   Memorandum of understanding between DoS and USAID for access and
          use of IDMS assets
      •   Federal identity credential issuance processes
      •   HSPD-12 implementation planning
      •   HSPD-12 information technology project prioritization and budgeting

The audit team evaluated whether the HSPD-12 project team had documented plans to
phase in the use of Federal identity credentials to access Federal facilities and information
systems to meet selected OMB and NIST requirements and deadlines for selected HSPD-
12 requirements (see methodology section below).

As of April 2007, USAID’s HSPD-12 project team had obligated nearly $251,000 for the
purchase of equipment and contractor support to implement HSPD-12.

Methodology
As the framework for designing this audit, the audit team identified requirements primarily
from HSPD-12, OMB’s HSPD-12 implementation instructions issued in August 2005, 6 and
NIST’s Federal Information Processing Standards (FIPS) 201. From these documents, the
team judgmentally selected nine key requirements as a basis for evaluating USAID’s
progress for implementing HSPD-12. They included four requirements within PIV-I and
five requirements within PIV-II. PIV-I selected requirements were (1) initiate national
agency check with inquiry (NACI) investigations before credential issuance or alternate
check, (2) maintain and identify the two types of documents used for employee and

6
    OMB Memorandum, M-05-24.


                                                                                          13
contractor identity proofing, (3) complete background investigations for all current
employees and contractors with fewer than 15 years of service, and (4) complete
background investigations for current employees and contractors with more than 15 years
of service. PIV-II selected requirements were (1) issue identity credentials, (2) issue and
require the use of identity credentials for all current employees and contractors with fewer
than 15 years of service, (3) issue and require the use of identity credentials for all current
employees and contractors with more than 15 years of service, (4) use the credentials’
electronic security features to authenticate identities to gain physical access to facilities,
and (5) use the credentials’ electronic security features to authenticate identities to gain
electronic access to information systems.

The audit team evaluated whether each of the nine selected requirements was met on the
basis of HSPD-12, OMB, and NIST completion target dates and requirements.
Additionally, for requirements for which the completion target dates have not yet passed
and which are likely not to be met, the team evaluated whether documentation (such as
implementation plans and rates of credential issuance) existed to determine whether
requirements could be completed by the target date. In reviewing the rates of credential
issuance, the team assumed a constant rate based on historic rates of issuance and
projected that rate to future periods to determine whether the target could be met.

The audit team reviewed a prior Government Accountability Office (GAO) audit report,
Agencies Face Challenges in Implementing New Federal Employee Identification
Standard (dated February 2006); the Federal Identity Credentialing Committee’s Federal
Identity Management Handbook; and applicable USAID documentation relating to
planning, budgeting, and implementation of HSPD-12 requirements. The team met with
USAID project team members from the Office of the Chief Information Officer and the
Office of Security. The team conducted a walk-through of the DoS facility housing the
Identity Management System servers and met with DoS staff involved with server
administration as well as DoS contacts used by USAID for HSPD-12 support efforts.

To test whether PIV-I and PIV-II procedure requirements were implemented to meet
OMB’s and NIST’s FIPS 201 requirements, the audit team judgmentally selected a total of
20 direct hire and contractor staff working at headquarters 7 who were issued new identity
credentials between October 27, 2006, and January 24, 2007. The team tested four
attributes to determine whether the following steps were completed:

    •   Two forms of ID were on file.
    •   Background investigations were completed (including adjudication).
    •   Federal Bureau of Investigation fingerprint check was completed and one
        fingerprint card was on file.
    •   Signed USAID form 500-1 (authorizing logical and physical access) was on
        file.

In addition, the audit team tested management control processes associated with the
receipt, issuance, and storage of PIV-II cards. Owing to the importance of the vetting
process, our noncompliance materiality threshold was set to one.


7
 Out of the 30 judgmentally selected direct hires and contractors, 20 were issued PIV cards and 10
were issued Facility Access Cards.



                                                                                               14
                                                                           APPENDIX II



MANAGEMENT
COMMENTS


December 10, 2007


MEMORANDUM

TO:                 IG/A/ITSA, Melinda G. Dempsey

FROM:               M/CIO, David Anewalt /s/

SUBJECT: Audit of USAID’s Implementation of Selected Homeland Security Presidential
Directive 12 (HSPD-12) Requirements for Personal Identity Verification of Federal
Employees and Contractors (Audit Report No. A-000-08-00X-P)

Thank you for the opportunity to respond to the draft audit report. This memorandum
contains the management decision for the draft Audit of USAID’s Implementation of
Selected Homeland Security Presidential Directive 12 (HSPD-12) Requirements for
Personal Identity Verification of Federal Employees and Contractors (Audit Report No. A-
000-08-00X-P).

The following are our management decision and corrective actions regarding the proposed
audit recommendation:

Recommendation No. 1: We recommend that USAID’s Chief Information Officer
develop and document an implementation plan for Personal Identity Verification Part II,
and submit the plan to the Office of Management and Budget. In developing this plan,
consideration should be given to explore other options to implement Homeland Security
Presidential Directive-12.

The Offices of the CIO and Security agree with the recommendation. We have prepared a
draft joint CIO and SEC HSPD-12 implementation plan and have summarized it below.
We plan to finalize this plan by June 2008. The successful implementation of HSPD-12 is
dependent upon consistent and adequate funding, resource availability and top
management support. The HSPD Implementation plan will be flexible in order to respond
to changing requirements, standards, guidelines and technology. The CIO will ensure that
the HSPD-12 requirements are met and will report our progress periodically to the OIG.
We plan to implement HSPD-12 requirements in four phases:




                                                                                 15
Phase I (CIO)

Phase I is Personal Identity Verification (PIV) I and II compliance with
background checks, enrollment (sponsorship, two forms of identification,
digital photograph, biometrics) and issuance of a compliant Federal ID
card. The Agency is almost 100% compliant with the objectives for
background checks, enrollment and card issuance for new employees.
The target completion date for enrollment and card issuance for all current
employees and contractors working in USAID/Washington is June 2009.

Target completion date: June 2009 for USAID/Washington; June 2012 for
overseas employees (dependent on DoS implementation)

Phase II (SEC)

Phase II consists of physical security upgrades necessary to enable
physical access to USAID/Washington using the new PIV card. The first
part will consist of an upgrade to software of the current access control
system and replacement card readers in order to use the PIV card for basic
physical access. The second part is to design and engineer a replacement
of the current aging access control system. We will initiate planning for this
project when: 1) the Agency has made a final decision on whether to use
the DoS IDMS, purchase an independent IDMS which replicates data to
DoS, or seek another alternative; 2) when funding becomes available for
planning/design, engineering, procurement and implementation of this
project and 3) the appropriate MOUs and/or agreements are reached with
DoS.

Target completion date:      December 2010 - USAID/W; Overseas (not
applicable)

Phase III (may run concurrently with Phase IV) (CIO)

Phase III will include desktop upgrades to use new PIV card with readers,
biometric data and encryption hardware to enable employees to use the
new credential for authentication and authorization (includes Public Key
Infrastructure).

Target completion date: December 2013 - USAID/W; and December 2017
USAID Overseas

Phase IV (CIO)

Phase IV will address the feasibility of integrating the IDMS with related
independent systems (e.g., access control system for physical access,
systems used for logical access, HR system, personnel security databases,
etc.). The goal of this phase is to ensure that the IDMS (or other
designated system) is the system of authority for data.




                                                                                 16
       Target completion date-: December 2013 USAID/W and December 2017
       USAID Overseas

Since the field work was completed, USAID has issued 1036 credentials. We now have
two operational enrollment and issuance stations which has doubled our capacity to
issue credentials. For FY08, the HSPD-12 program is slated for $1.80 million in capital
investment funds. We requested $2.0 million in funding for the HSPD-12 program for
FY2009. We have initiated a weekly USAID HSPD-12 Implementation group to monitor
progress and ensure coordination with Agency stakeholders. We have partnered with
DoS (with OMB concurrence) and believe the partnership has already paid dividends by
allowing USAID to:

       •   Accelerate implementation timeframes;
       •   Reduce implementation costs for HSPD-12 requirements;
       •   Realize efficiencies in eliminating redundant infrastructure and;
       •   Enhance Interoperability – Much easier to ensure interoperability across a
           limited number of systems.

If you have questions or need additional information, please contract Shirl Hendley, M/CIO
at 202-712-4704 or Lorrie Meehan, (SEC), 202-712-5338.




                                                                                       17
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
